  CORPORATION FOR PUBLIC BROADCASTING

       OFFICE OF INSPECTOR GENERAL




    EXAMINATION OF COMMUNITY SERVICE AND
      OTHER SELECTED GRANTS AWARDED TO
OREGON PUBLIC BROADCASTING, PORTLAND, OREGON
    FOR THE PERIOD JULY 1, 2011 - JUNE 30, 2013




            REPORT NO. ASJ1306-1401




                 March 10, 2014




                 *^-z£   /(^t< /£--
                 Mary Mitchelson
                Inspector General
                                  BACKGROUND
Our research found that OPB is the primary television and radio public broadcasting
network for most of Oregon, as well as southern Washington. OPB consists of five full-
power television stations, dozens of VHF or UHF translators, and over 20 radio stations
and frequencies. Broadcasts include local programming as well as television and radio
programs from the Public Broadcasting Service (PBS), National Public Radio, Public
Radio International, and the BBC World Service. Its headquarters and television
studios are based in Portland.

OPB is also a major producer of television programming for national broadcast on PBS
and Create, with shows such as History Detectives, Barbecue America, Foreign
Exchange, and travel shows hosted by Rick Steves and Art Wolfe. OPB has over one
million viewers throughout its region and an average of over 380,000 radio listeners
each week

During our audit period OPB received $6,542,962 from CPB for various grants as
itemized in Exhibit A. OPB reported NFFS of $20,236,049 in fiscal year (FY) 2012 and
$21,244,386 in FY 2013 per Exhibit D, and OPB’s audited financial statements for the
two FYs reported revenues of $29,185,378 in FY12 and $32,576,261 in FY 13. OPB’s
FY begins July 1 and ends on June 30.

In addition to the CSG funds received by OPB, CPB funded various projects that
included three production agreements that we included in our testing, Exhibits E–G.
These agreements were for two grants awarded for “The Environmental Science,
Renewable Energy, Natural Resources, and Sustainability Team” and “EarthFix LJC –
Year 3.” The third grant was awarded for the “OPB Presidential Primary Debate.”
The environmental projects were OPB collaborations with partner stations KCTS-TV,
KUOW-FM; Northwest Public Radio (and affiliated television stations, KWSU-TV and
KTNW-TV); Boise State Radio; Idaho Public Television; and Southern Oregon Public
Television to create multimedia, multi-platform content on the subject of the
environment, environmental science, renewable energy, natural resources and
sustainability in the Northwest United States. This is a “Local Journalism Center.”
project.
“The OPB Presidential Primary Debate” award was made to compensate OPB for
expenses incurred by OPB in good faith in anticipation of hosting a live, ninety minute
television and radio simulcast of a debate between candidates for the 2012 Republican
presidential nomination. Just days prior to the debate, the debate was cancelled.




                                           2
                                  RESULTS OF REVIEW
We examined OPB’s management’s assertions of compliance with CPB grant
requirements: a) CSG Certification of Eligibility; b) CSG Legal Agreement; c) AFR
Signature Page; 2 and d) Certification of Final Financial Accounting. 3 The CSG
Certification of Eligibility includes OPB’s compliance with AFR/NFFS reporting in
accordance with CPB’s Financial Reporting Guidelines; Act requirements for open
meeting, open financial records, Community Advisory Board, EEO reporting, and donor
lists; and discrete accounting requirements. Management is responsible for compliance
with those requirements. Our responsibility is to express an opinion on management’s
assertions about its compliance based on our examination.

Our examination was conducted in accordance with the Government Auditing
Standards for attestation engagements and, accordingly, included examining, on a test
basis, evidence about OPB’s compliance with those requirements and performing such
other procedures as we considered necessary in the circumstances. We believe that
our examination provides a reasonable basis for our opinion.

In our opinion OPB has fully complied with the aforementioned requirements for the FY
2012 and 2013 TV and radio CSGs (Exhibits B and C), the two environmental projects
(Exhibits E and F), and the Presidential Primary Debate project (Exhibit G).




2
 CSGs awarded for TV and radio for FYs 2012-1013.
3
 Final Financial Reports for production projects for “The Environmental Science, Renewable Energy,
Natural Resources and Sustainability Team,” Acct. No. 13473 and “OPB Presidential Primary Debate,”
Acct No. 14467.

                                                  3
                                                                                 Exhibit A

                               CPB Payments to OPB
                             July 1, 2011 – June 30, 2013

             CPB Grants                   FY 2012        FY 2013         Total
TV
Community Service Grant:                  $1,468,279      $1,459,447     $2,927,726
Interconnection                                $28,561      $29,684        $58,245
Distance Service                              $241,071    $231,6020       $472,673
                  Total TV                $1,737,911      $1,720,733     $3,458,644
Radio
Unrestricted Community Service Grant:         $607,066     $530,576      $1,137,642
Restricted Community Service Grant:           $214,403     $187,390       $401,793
             Total Radio                      $821,469   $717,966.00    $1,539,4350


         Total TV and Radio               $2,559,380      $2,438,699     $4,998,079

Other Grants
The Environmental Science,
Renewable Energy, Natural Resources
and Sustainability Team-Earthfix LJC
Year 3 grant #13473 and #14785                $450,000     $911,281      $1,361,281
Presidential Primary Debate: Election
2012                                                $0     $128,556       $128,556
Survey of Citizen's Views on the Future             $0      $20,000        $20,000
Economy Response Grant: The Small
Business Resource Network Initiative            $5,486             $0       $5,486
Merger/Collaboration Planning                       $0      $15,000        $15,000
American Archive Content                       $14,560                     $14,560
         Total Other Grants               $470,0456       $1,074,837     $1,544,883


Total TV, Radio and Other Grants          $3,029,426      $3,513,536     $6,542,962




                                          4
                                                                                     Exhibit B

                         TV Annual Financial Reports
                     Years Ending June 30, 2012 and 2013

Line                        Description                     FY 2012        FY 2013
       Schedule A,
       Source of Income
       Amounts provided directly by federal government
   1   agencies                                              $1,324,601     $2,067,110
1.A.   PTFP (NTIA) Facilities Grants                          $104,640       $157,973
1.D.   National Endowment for the Arts and Humanities          $51,965               $0
1.E.   National Science Foundation                           $1,089,992     $1,791,146
1.F.   Other Federal Funds                                     $78,004       $117,991
   2   Amounts Provided by Public Broadcasting Entities      $5,103,306     $3,638,527
2.A.   CPB-CSG                                               $1,468,279     $1,459,447
2.B.   CPB - all other funds from CPB                         $376,907       $283,554
       PBS - all payments except copyright royalties and
2.C.   other pass-through payments                           $3,149,918     $1,845,296
2.D.   TV-Interconnection                                      $28,561               $0
2.E.   Public broadcasting stations - all payments             $79,641        $33,112
2.F.   Other PBE funds                                                $0      $17,118
       Local boards and departments of education or other
   3   local government or agency sources                       $9,836        $14,509
       State boards and departments of education or other
   4   state government or agency sources                       $5,631        $48,263
   5   State colleges and universities                         $10,397        $11,283
   6   Other state-supported colleges and universities          $1,118           $570
   7   Private colleges and universities                       $31,841        $32,917
   8   Foundation and nonprofit associations                  $773,090      $1,154,214
   9   Business and Industry                                 $1,141,146     $1,225,735
  10   Membership and Subscription                           $4,001,859     $4,028,618
       Form of Revenue
  14   Special fundraising activities                         $548,639       $467,141
  15   Passive income                                         $255,872       $200,724
       Gains and losses on investments, charitable trusts
       and gift annuities and sale of other assets (other
  16   than endowment funds)                                     ($240)          $816
  17   Endowment revenue                                     $1,026,041     $2,115,433
  18   Capital contributions                                  ($69,956)              $0
  19   Gifts and bequests from major individual donors       $1,467,232     $1,337,651
  20   Other Direct Revenue                                   $600,073        $38,320
       Total Item 3-20                                       $9,802,579    $10,676,194
  21   Total Revenue                                        $16,230,486    $16,381,831




                                               5
                                                                          Exhibit B (continued)

                         TV Annual Financial Reports
                     Years Ending June 30, 2012 and 2013

Line                        Description                         FY 2012        FY 2013
           Adjustments to Revenue
  22   Federal revenue from line 1.                             $1,324,601      $2,067,110
  23   Public broadcasting revenue from line 2                  $5,103,306      $3,638,527
  24   Capital funds exclusions                                  ($69,956)        $15,450
       Other revenue on line 21 not meeting the source,
       form, purpose, or recipient criteria to be included as
  25   NFF                                                      $1,053,151        $38,320
  26   Other automatic subtractions from total revenue          ($195,116)      $2,217,876
          Total Adjustments to Revenue                          $7,215,986      $7,977,283
  27   Total Direct Nonfederal Financial Support                $9,014,500      $8,404,548
       Schedule C
       PROFESSIONAL SERVICES (must be eligible as
   1   NFFS)                                                       $14,400        $16,361
       GENERAL OPERATIONAL SERVICES (must be
   2   eligible as NFFS)                                           $25,515        $33,099
   3   OTHER SERVICES (must be eligible as NFFS)                    $4,660               $0
       Total in-kind contributions - services and other
       assets eligible as NFFS (sum of lines 1 through 3),
       forwards to Line 3a. of the Summary of Nonfederal
   4   Financial Support                                           $44,575        $49,460
   5   IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS                     $8,009         $6,635
       Total in-kind contributions - services and other
       assets (line 4 plus line 5), forwards to Schedule F,
       line 1c. Must agree with in-kind contributions
   6   recognized as revenue in the AFS.                           $52,584        $56,095
       Schedule D
  7b   b) Federal or public broadcasting sources                          $0      $18,227
       c) TV only—property and equipment that includes
       new facilities (land and structures), expansion of
  7c   existing facilities and acquisition of new equipment               $0      $31,939
  7    IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS                           $0      $50,166
       Schedule E
       PROGRAM SERVICES
   1   Programming and production                               $8,594,632      $8,098,914
   A   TV CSG                                                             $0     $621,749
   B   TV Interconnection                                                 $0      $29,508
   C   Other CPB Funds                                                    $0             $0
   D   All non-CPB Funds                                                  $0    $7,447,657
   2   Broadcasting and engineering                             $3,649,788      $3,519,923




                                                6
                                                                   Exhibit B (continued)

                        TV Annual Financial Reports
                    Years Ending June 30, 2012 and 2013

Line                        Description                  FY 2012        FY 2013
   A   TV CSG                                                      $0     $123,200
   B   TV Interconnection                                          $0             $0
   C   Other CPB Funds                                             $0     $231,778
   D   All non-CPB Funds                                           $0    $3,164,945
   3   Program information and promotion                   $500,899       $418,780
   A   TV CSG                                                      $0      $40,370
   B   TV Interconnection                                          $0             $0
   C   Other CPB Funds                                             $0             $0
   D   All non-CPB Funds                                           $0     $378,410
       SUPPORT SERVICES
   4   Management and general                             $2,768,816     $2,877,564
   A   TV CSG                                                      $0     $236,698
   B   TV Interconnection                                          $0             $0
   C   Other CPB Funds                                             $0      $22,268
   D   All non-CPB Funds                                           $0    $2,618,598
   5   Fund raising and membership development            $1,587,123     $1,387,605
   A   TV CSG                                                      $0     $437,430
   B   TV Interconnection                                          $0             $0
   C   Other CPB Funds                                             $0             $0
   D   All non-CPB Funds                                           $0     $950,175
   6   Underwriting and grant solicitation                 $170,819       $183,813
   A   TV CSG                                                      $0             $0
   B   TV Interconnection                                          $0             $0
   C   Other CPB Funds                                             $0             $0
   D   All non-CPB Funds                                           $0     $183,813
       Total Expenses (sum of lines 1 to 7) must agree
   8   with audited financial statements                 $17,272,077    $16,486,599




                                             7
                                                                                             Exhibit C

                           Radio Annual Financial Reports
                         Years Ending June 30, 2012 and 2013
Line                            Description                         FY 2012        FY 2013
           Schedule A
           Source of Income
       1   Amounts provided directly by federal government                    $0         $305
           Amounts provided by Public Broadcasting Entities
           (e.g. CPB, PBS, NPR, etc., including other stations
           and regional networks. See Guidelines for complete
       2   list.)                                                    $1,400,847     $1,499,468
           CPB - Community Service Grants (for radio enter
 2.A.      unrestricted portion only)                                 $607,066       $717,966
 2.B.      CPB-digital Project Grants                                         $0     $704,522
 2.C.      CPB-Restricted CSG                                         $214,403               $0
 2.D.      NPR - all payments except pass-through payments                    $0      $11,890
 2.E.      CPB – all other funds                                      $526,616               $0
 2.F.      Other PBE funds                                                    $0      $11,850
 2.H.      Public broadcasting stations - all payments                 $52,762        $53,240
       3   Local Boards and Departments of Education or
           other local government                                      $49,353        $44,328
       4   State boards and departments of education or other
           state government or agency sources                          $13,203        $17,539
       5   State colleges and universities                            $162,131       $179,558
       6   Other state-supported colleges and universities              $1,079         $1,703
       7   Private colleges and universities                          $389,670       $321,293
       8   Foundation and nonprofit associations                      $823,641      $1,180,554
       9   Business and Industry                                     $1,946,945     $2,428,618
   10      Memberships and subscriptions                             $4,542,413     $5,477,378
           Form of Revenue

   14      Special fundraising activities                             $444,433       $488,979
           Direct special fundraising expenses 14.A.                  $135,497       $142,835
   15      Passive Income                                               $4,820         $7,597
   16      Gains and losses on investments,                              ($239)          $817
   17      Endowment revenue                                         $1,015,420      2,114,283
   18      Capital fund contributions                                         $0              $0
   19      Gifts and bequests from major individual donors           $1,506,669     $1,902,591
   20      Other Direct Revenue                                       $262,792         17,941
   21      Total Revenue                                            $12,698,674    $15,825,787
           Adjustments to Revenue
   22      Federal revenue                                                    $0             305
   23      Public broadcasting revenue                               $1,400,847     $1,499,468
           Other revenue on line 21 not meeting the source,
           form, purpose, or recipient criteria to be included as
   25      NFFS                                                       $410,543        $17,941


                                                    8
                                                                        Exhibit C (continued)

                          Radio Annual Financial Reports
                        Years Ending June 30, 2012 and 2013

Line                           Description                    FY 2012         FY 2013


 26.B      Special fundraising event expenses                   $135,497        $142,835
 26.C      Gains from sales of property and equipment                   $0          $547
 26.E      Unrealized investment and actuarial gains/losses        ($239)           $270
           Realized and unrealized net investment
 26.F      gains/losses                                        ($323,975)      $1,091,915
 26.G      Rental income                                                $0      $168,651
 26.H      Fees for services                                            $0       $17,475
 26.J      Other revenue ineligible as NFFS                             $0       $14,590
 26.K      FMV of high-end premiums                                     $0      $252,976
  27.      Total Direct Nonfederal Financial Support          $11,076,001     $12,618,814


           Schedule C, In-Kind Contributions
       1   Professional Services                                 $40,254         $45,679
    2      General Operational Services                          $25,996         $40,398
  3.c      Local advertising                                     $34,723         $85,487
       4   Total In-Kind Services                               $100,973        $171,564
       5   IN-KIND CONTRIBUTIONS INELIGIBLE AS NFFS             $102,973         $90,818
           Total in-kind contributions - services and other
       6   assets (line 4 plus line 5),                         $203,946        $262,382


           Schedule E, Expenses:
           Program Services
       1   Programming and production                          $4,779,287      $5,613,823
           A. Restricted Radio CSG                                      $0      $187,390
           B. Unrestricted Radio CSG                                    $0      $424,968
           C. Other CPB Funds                                           $0      $694,522
           D. All non-CPB Funds                                         $0     $4,306,943
       2   Broadcasting and engineering                        $2,142,576      $2,219,837
           A. Restricted Radio CSG                                      $0              $0
           B. Unrestricted Radio CSG                                    $0      $105,608
           C. Other CPB Funds                                           $0              $0
           D. All non-CPB Funds                                         $0     $2,114,229
       3   Program information and promotion                    $522,577        $624,399
           A. Restricted Radio CSG                                      $0              $0
           B. Unrestricted Radio CSG                                    $0              $0
           C. Other CPB Funds                                           $0              $0
           D. All non-CPB Funds                                         $0      $624,399


                                                  9
                                                                       Exhibit C (continued)

                           Radio Annual Financial Reports
                         Years Ending June 30, 2012 and 2013

Line                           Description                   FY 2012         FY 2013
           Support Services
       4   Management and general                             $1,718,028      $1,841,067
           A. Restricted Radio CSG                                     $0              $0
           A. Restricted Radio CSG                                     $0              $0
           B. Unrestricted Radio CSG                                   $0              $0
           C. Other CPB Funds                                          $0       $10,000
           D. All non-CPB Funds                                        $0     $1,831,067
       5   Fund raising and membership development            $1,869,346      $2,171,688
           A. Restricted Radio CSG                                     $0              $0
           B. Unrestricted Radio CSG                                   $0              $0
           C. Other CPB Funds                                          $0              $0
           D. All non-CPB Funds                                        $0     $2,171,688
       6   Underwriting and grant solicitation                 $691,033        $707,523
           A. Restricted Radio CSG                                     $0              $0
           B. Unrestricted Radio CSG                                   $0              $0
           C. Other CPB Funds                                          $0              $0
           D. All non-CPB Funds                                        $0      $707,523
           Total Expenses (sum of lines 1 to 7) must agree
           with audited financial statements                 $11,722,847     $13,178,337




                                                 10
                                                                                   Exhibit D

              Summary of Non-Federal Financial Support
             For the periods ending June 30, 2012 and 2013
  Certified by Head of Grantee and Independent Accountant's Report

                                                                   Radio        Total FY
Line                    Description                TV FY 2012     FY 2012        2012

       Summary of Non-Federal Financial
       Support:
 1     Direct Revenue (Schedule A)                  $9,014,500   $11,076,001   $20,090,501
 2     Indirect Administrative (Schedule B)                $0            $0            $0
 3     In-Kind Contributions (Schedule C)             $44,575      $100,973      $145,548
 4     Total Non-Federal Financial Support          $9,059,075   $11,176,974   $20,236,049




                                                                   Radio        Total FY
Line                    Description                TV FY 2013     FY 2013        2013

       Summary of Non-Federal Financial
       Support:
 1     Direct Revenue (Schedule A)                  $8,404,548   $12,618,814   $21,023,362
 2     Indirect Administrative (Schedule B)                $0            $0            $0
 3     In-Kind Contributions (Schedule C)             $49,460      $171,564      $221,024
 4     Total Non-Federal Financial Support          $8,454,008   $12,790,378   $21,244,386




                                              11
                                                                                Exhibit E

                EarthFix Acct # 13473 Final Financial Report
            For the Period November 1, 2010 to January 31, 2013

Revenue and Expenses                                     Budget            Actual


REVENUE
CPB                                                         $1,417,900     $1,417,900
Grantee Guarantee                                                 75,263      121,856
                                     TOTAL REVENUE          $1,493,163     $1,539,756
EXPENSES
PERSONNEL
Vice President News/Public Affairs (M Holm)                   $62,719         $51,050
EarthFix Editor                                               136,000         136,408
Community Engagement Coordinator                              104,500         105,365
Multimedia Reporters                                          510,425         526,566
OPB Grant Analyst                                                 13,000        9,623
Interactive Developer                                             14,400        9,059
                                              Subtotal       $841,044        $838,071
BENEFITS & TAXES
Benefits & Taxes                                             $211,746        $217,633
                                              Subtotal       $211,746        $217,633
CONTRACTORS
Market and content evaluation: Prince Market Research         $74,000         $71,292
Investigate West                                                      0        20,000
Knight Digital Media Training                                     37,000       37,033
Publish2                                                          10,500       10,500
PRX                                                                1,250        1,250
Davis Hibbits Midghall                                            15,000       15,000
Contract Interactive Work                                          5,000            180
                                              Subtotal       $142,750        $155,255
TRAVEL
Airfare                                                       $17,800         $18,195
Lodging                                                           22,400       22,017
Meals/Per Diem                                                    15,340        9,356
Ground Transportation                                             24,400       27,107
Misc. Travel Expenses                                              4,000        3,575
                                              Subtotal        $83,940         $80,250
EQUIPMENT
Multimedia Reporter Equip. Package                            $56,430         $56,426




                                               12
                                                                   Exhibit E (continued)

                 EarthFix Acct # 13473 Final Financial Report
             For the Period November 1, 2010 to January 31, 2013

Revenue and Expenses                                  Budget              Actual
                                           Subtotal        $56,430           $56,426
SUPPLIES/SERVICES
Telephone (Land & Cell)                                    $13,500           $12,457
Lexis-Nexis seats                                               3,375          3,263
Subscriptions                                                   3,500          2,910
Memberships (SEJ, etc.)                                         2,000          1,914
Delivery/postage/Copier/Fax/misc office                         5,582          6,163
Public Media Metrics                                               0               0
                                           Subtotal        $27,957           $26,707
OTHER
Community outreach, marketing and promotion 3              $22,750           $22,513
Television Field Production                                    11,500         26,496
                                           Subtotal        $34,250           $49,009
SUMMARY
TOTAL PRODUCTION COSTS                                   $1,398,117       $1,423,350
Indirect Costs                                                 95,047        116,578
TOTAL BUDGET                                             $1,493,163       $1,539,928




                                                13
                                                                                      Exhibit F

                                     EarthFix Acct # 14785
                               Interim Financial Report to CPB
                            For January 1, 2013 to of April 30 2013

Revenue and Expenses                                   Budget              Actual as of 4/30/13
Revenue
CPB                                                             $415,023               $ 65,119
Grantee Guarantee                                                339,180                  9,574
Total                                                           $754,203                $74,693


Expenses
PERSONNEL
ERNeST Editor                                                    $70,304                $15,154
Community Engagement Coordinator                                  58,916                 14,587.
Multi Media Reporters                                            304,302                 19,902.
                                          Subtotal              $433,522               $ 49,643
Benefits and Taxes                                              $101,878                $12,277
                                          Subtotal              $101,878                $12,277
CONTRACTORS
Davis Hibbits Market Research                                    $30,000                     $0
                                          Subtotal               $30,000                     $0
TRAVEL
Airfare                                                          $13,680                   $398
Lodging                                                            9,000                    377
Meals/Per Diem                                                     6,720                    320
Ground Transportation                                             30,000                  1,177
Misc. Travel Expenses                                              3,000                          0
                                          Subtotal               $62,400                 $2,272
SUPPLIES/SERVICES
Telephone (land and cell)                                         $5,000                   $526
Lexis-Nexis seats                                                  6,300                    675
Subscriptions                                                      1,000                     30
Memberships                                                        1,000                    130
Delivery/postage/copier/fax/misc office                            1,500                    (71)
Publish2                                                          10,000                          0
                                          Subtotal               $24,800                 $1,290
OTHER
Community outreach, marketing and promotion                      $22,000                 $1,327
                                          Subtotal               $22,000                 $1,327
Indirect Costs                                                   $79,603                 $7,884
TOTAL BUDGET                                                    $754,203                $74,693




                                                 14
                                                                                 Exhibit G

                         Republican Debate Report
                       Final Financial Report to CPB
                As of January 1, 2012 to September 12, 2012

Expenses                                         Budget            Final Costs
OPB Staff
Executive Producers                                   $15,000             $15,000
Engineering/Web/Radio Services                        $10,000             $10,000
Studio Coordinator                                        $5,000           $5,000
Finance Director                                          $5,000           $5,000
Legal                                                     $5,000           $5,000
Production Management                                     $5,100           $5,538
                                     Subtotal        $45,1000             $45,538
Contract/project staff (includes Fringes)
Moderator                                                 $6,000           $3,300
Producer                                              $21,600             $33,694
Producer                                              $11,200              $7,298
Director                                              $12,000              $6,257
Assistant Director                                        $2,500                 $0
Lighting Director                                         $5,000           $3,931
Production Assistant -during production                   $1,500            $180
Spanish translation services                              $3,000                 $0
Closed Captioning                                         $3,000                 $0
                                     Subtotal         $65,800             $54,660
                        TOTAL STAFF COSTS            $110,900           $100,198
TRAVEL
Pre-Production
Airfares                                                   $600                  $0
Lodging                                                   $1,500                 $0
Per Diem                                                   $300                  $0
Ground Transportation                                      $240                  $0
                                     Subtotal             $2,640                 $0
Producer
Airfares                                                   $600                  $0
Lodging                                                   $4,725                 $0
Per Diem                                                  $1,260                 $0
Excess baggage, Misc.                                      $150                  $0
Ground Transportation                                     $1,000                 $0
                                     Subtotal             $7,735                 $0




                                            15
                                                                            Exhibit G (continued)

                          Republican Debate Report
                        Final Financial Report to CPB
                 As of January 1, 2012 to September 12, 2012

Expenses                                                  Budget              Final Costs
Moderator/Host
Airfares                                                           $1,200                   $40
Lodging                                                             $550                     $0
Per Diem                                                            $180                     $0
Excess baggage, Misc.                                               $100                     $0
Ground Transportation                                               $200                     $0
                                          Subtotal                 $2,230                   $40
                      TOTAL TRAVEL COSTS                       $12,605                      $40
Studio
Studio Plus Light/Grip Rental Package                              $3,750             $2,500
Studio Setup/teardown                                              $3,000             $3,000
OPB meeting room (Appy)                                            $1,000                    $0
OPB- press accommodations-(OPB North)                              $7,500             $4,520
HD Camera                                                      $11,000               $16,171
Studio Setup Crew                                                  $6,000             $3,515
Technical Director                                                  $800                     $0
Floor Director                                                      $800                     $0
Sound Engineer                                                     $1,200                    $0
Sound Technician                                                   $1,200                    $0
Camera Operators                                                   $4,000               $200
CG/Tape Operator                                                    $800.                    $0
Video Technician                                                    $800                     $0
Engineer in Charge                                                 $2,400             $1,217
Studio Technician                                                  $1,200               $237
                                          Subtotal             $45,450               $31,360
Other Production Expenses
Equipment rental (lights, Jib, and other)                          $5,000             $7,141
Tents, tables and furniture rentals                            $25,000                $3,935
Parking space and shuttle services                                 $3,000                    $0
Set design and construction                                    $30,000               $25,520
Craft Services/green room accommodations                           $3,500             $3,148
Production Graphics/titles                                         $7,500             $2,315
Satellite trucks and other uplink costs                        $12,000                $9,913
Emergency Crew and Vehicle                                         $2,000                    $0




                                                     16
                                                                             Exhibit G (continued)

                          Republican Debate Report
                        Final Financial Report to CPB
                 As of January 1, 2012 to September 12, 2012

 Expenses                                                 Budget                Final Costs
 PA System Rental                                                  $2,000                 $9,585
 Bleacher Seating/risers                                           $6,000                 $7,838
 Padded Stackable chairs                                           $1,800                   $543
 OPB front desk/phone                                               $640                       $0
 Security services                                               $15,000                  $2,052
 Production costs-Unanticipated to stage and
 producer                                                        $15,000                  $5,635
                                      Subtotal                  $129,490                 $77,625
 MEDlA

 XDCAM Disc to Record                                               $300                      $49
 Master Tapes - SD/HD                                               $250                       $0
                                      Subtotal                      $550                      $49
    TOTAL STUDIO & PRODUCTION COSTS                             $175,490                $109,033
 OFFICE
 Telephone (ALL-cell, fax, ld, conf. Calls-OPB
 North)                                                          $10,000                    $761
 Internet hookups and other (OPB North)                          $15,000                 $14,635
                                      Subtotal                   $25,000                 $15,396
 PROMOTION
 Social Media/Station Relations campaign                         $20,000                  $1,250
 On air promotion                                                  $5,000                 $4,058
 Viewer Response (e-mails)                                         $5,000                      $0
 Uve WEB Stream-
 Encoding/Hosting/Bandwidth                                        $4,000                      $0
                                      Subtotal                   $34,000                  $5,308
  SUBTOTAL DIRECT PRODUCTION COSTS                              $357,995                $229,976


 INDIRECT COSTS
 G&A @ 11.8%                                                     $42,243                 $27,137
 TOTAL PROJECT COSTS                                            $400,238                $257,113



Note: Final Financial Report did not include revenue information; CPB funded 50 percent of the projects
budget totaling $128,556.




                                                 17
                                                                                  Exhibit H

                                Scope and Methodology

We performed an examination to determine OPB’s compliance with CPB Financial
Reporting Guidelines, provisions of the Communications Act, grant certification
requirements, and other grant provisions. The scope of the examination included
reviews and tests of the information reported by the station on its AFR and reconciled to
audited financial statements for the years ending June 30, 2012 and June 30, 2013,
grant certifications of compliance with Act requirements, and certifications of Financial
Report (Final and Interim) submitted to CPB.

We tested the allowability of NFFS claimed on OPB’s radio and TV AFRs by performing
financial reconciliations and comparisons to underlying accounting records (general
ledger) and the audited financial statements. We reviewed underwriting agreements
and other documentation supporting revenues reported. Specifically, we reviewed 30
NFFS revenue transactions totaling $980,906 of $20,236,049 in FY 2012 and 11 NFFS
revenue transactions totaling $341,347 of $21,244,386 in FY 2013.

We reviewed the allowability of expenses charged to selected CPB grants (CSG,
Earthfix, and the presidential debate projects). To determine that expenditures were
incurred in accordance with the grant terms, we reviewed $1,299,087 of $6,869,820
expenses (19 percent) reported on the CPB grants (CSGs, Earthfix, and the presidential
debate projects) in FYs 2012 and FY 2013. We reviewed production agreements, grant
agreements, vendor invoices, and other documentation supporting expenditures tested.

We also reviewed corporate policies, records, and documents supporting the station’s
compliance with the Act requirements to: provide advance notice of public meetings;
make financial and EEO information available to the public; operate a Community
Advisory Board; and provide documents supporting compliance with donor lists and
political activities prohibitions. Our procedures included interviewing station officials and
its independent public accountant.

We gained an understanding of internal controls over the preparation of AFRs, cash
receipts, and cash disbursements. We also gained an understanding of OPB’s policies
and procedures for compliance with certification of eligibility requirements,
Communications Act, and CPB grant agreement terms for allowable costs. We used
this information to assess risks and plan the nature and extent of our testing to conclude
on our objectives. We also tested the effectiveness of controls over payment
authorizations.

Our fieldwork was conducted from October 2013 through January 2014. Our
examination was performed in accordance with the Government Auditing Standards for
attestation examinations.




                                             18
